HHS/OIG, Audit -"Audit of HIV/AIDS Activities at the Multicultural AIDS Coalition for the Period July 1, 2000Through September 30, 2002,"(A-01-02-01503)
Department
of Health and Human Services
"Audit of HIV/AIDS Activities at the Multicultural AIDS Coalition for the Period July 1, 2000 Through September
30, 2002," (A-01-02-01503)
January 27, 2003
Complete
Text of Report is available in PDF format (751 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Multicultural AIDS Coalition (MAC) has generally met its overall performance expectations but needs to improve its
financial management system to ensure grant funds are used for the intended purpose. We specifically found that:  (1)
MAC allocated personnel costs to federal grants based on budget estimates because it had not developed a system for allocating
salaries and wages to federal grants and contracts based on personnel activity reports for each employee; and (2) two MAC
employees, whose salaries were paid with CDC funds, appeared to be involved in lobbying activitiesan unallowable charge
under federal regulations.  We recommended that MAC continue its efforts to:  implement its revised system for
allocating personnel costs and periodically monitor the personnel costs charged to federal awards; and develop written
policies and procedures addressing the types of costs and activities that are unallowable as charges to federal grants.